No.
IN THE SUPREME COURT OF THE UNITED STATES
LUZ GONZÁLEZ-BERMÚDEZ,
Petitioner,
v.
ABBOTT LABORATORIES P.R. INC. and KIM PÉREZ,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT
OF CERTIORARI in the above-captioned case contains 7,383 words, excluding the
parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 30, 2021.
s/ Michael T. Kirkpatrick
Michael T. Kirkpatrick
PUBLIC CITIZEN LITIGATION GROUP
1600 20th Street NW
Washington, DC 20009
(202) 588-1000
mkirkpatrick@citizen.org
Counsel for Petitioner

